APPENDIX
Jose Yeyille v. Armandina Acosta-Leon; et al.
PETITION FOR WRIT OF CERTIORARI TO
THE THIRD DISTRICT COURT OF APPEAL OF FLORIDA
NO.

INDEX TO APPENDICES
Jose Yeyille v. Armandina Acosta-Leon; etal.
PETITION FOR WRIT OF CERTIORARI TO
THE THIRD DISTRICT COURT OF APPEAL OF FLORIDA
NO.

CERTIFICATE OF SERVICE
[ NOTE: Jose Yeyille v. Armandina Acosta-Leon, SC21-858 (June 8,2021).
Petition for Emergency Writ of Prohibition for the Disqualification of Chief
Judge Kevin Emas. Active. Pending 1.
APPENDIX 1: Jose Yeyille v. Armandina Acosta-Leon, et al., 3D20-1824
(June 2, 2021). Appellant’s Pro Se Amended Motion for the Retroactive
Disqualification of Chief Judge Kevin Emas is hereby denied. Appellant’s
pro se Motion for Rehearing, Certify Question of Great Public
Importance, and for Written Opinion is hereby denied.
EMAS, C.J., and SCALES and GORDO, JJ., concur.
APPENDIX 2: Jose Yeyille v. Armandina Acosta-Leon, et al., 3D20-1824
(May 26,2021). (PER*CVRIAM affirmance without opinion) EMAS, C.J.,
and SCALES and GORDO, JJ.
APPENDIX 3: Jose Yeyille v. Armandina Acosta-Leon, et al.,
3D20-1824 (May 26,2021). Appellant’s Pro Se “Suggestion for
Certification” to the Florida Supreme Court, this appeal requires
immediate resolution by the Supreme Court and is of great public
importance and will have a great effect on the administration of
justice throughout the state, is hereby denied.
EMAS, C.J., and SCALES and GORDO, JJ., concur.
APPENDIX 4: Jose Yeyille v. Armandina Acosta-Leon, et al., Case No.
2018-22362 (December 7,2020). Order denying Petitioner’s ISecondl
Motion for Reconsideration. Judge Antonio Arzola.

1

APPENDIX 5: Jose Yeyille v. Armandina Acosta-Leon, et al., Case No.
2018-22362 (December 4,2020). Order Granting Detendants’Combihed
Motion to Dismiss with Prejudice and Order of Dismissal.
Judge Antonio Arzola.
APPENDIX 6: Jose Yeyille v. Armandina Acosta-Leon, et al., Case No.
2018-22362 (December 2,2020). Order denying Plaintiff’s fFirstl
Motion for Reconsideration without prejudice. Judge Antonio Arzola.
APPENDIX 7: Jose Yeyille v. Armandina Acosta-Leon, et al.,
Case No. 2018-22362 (December 1,2020). Proposed Order Granting
Defendants’ Combined Motion to Dismiss Petitioner’s Amended
Petition for Declaratory Judgments for Constitutional Challenges,
December 1,2020. Judge Antonio Arzola.
APPENDIX 8: Jose Yeyille v. Armandina Acosta-Leon, et al.,
Case No. 2018-22362 (November 28,2018). AMENDED PETITION
FOR DECLARATORY JUDGMENTS FOR CONSTITUTIONAL
CHALLENGES.

2

CERTIFICATE OF SERVICE TO COUNSELS FOR RESPONDENTS
AND THE ATTORNEY GENERAL OF FLORIDA
I hereby certify that on August 19, 2021 a true and correct copy of this
APPENDIX was sent through U.S. mail to Walter J. Harvey School Board
Attorney, The School Board of Miami-Dade County, Florida 1450 NE 2nd
Avenue, Room 430, Miami, FL 33132; and the Office of the Attorney General.
PRO-SE
Jos^ Yeyille
550: SW 135th Court
Mialni, FL 33175

Walter J. Harvey, School Board Attorney, The School Board of
Miami-Dade County, Florida, 1450 NE 2nd Avenue, Room 430
Miami, FL 33132
Luis M. Garcia, Esq. Attorney for Defendant School Board
Deputy Assistant School Board Attorney
Sara M. Marken, Esq. Attorney for Defendants Robertson, Acosta Leon, AsuncionValdes and Egna Rivas. Assistant School Board Attorney
Office of the Attorney General, State of Florida, The Capitol PL-01
Tallahassee, Florida 32399-1050
Department of Financial Services, 200 E. Gaines Street,
Tallahassee, FL 32399

3

/

IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
THIRD DISTRICT
JUNE 02, 2021

JOSE YEYILLE,
Appellant(s)/Petitioner(s)
vs.
ARMANDINA ACOSTA-LEON, et al.
Appellee(s)/Respondent(s),

CASE NO.: 3D20-1824
L.T.NO.:

18-22362

Upon consideration, Appellant’s pro se Motion and “Amended
Motion for the Retroactive Disqualification of Chief Judge Kevin Emas” are
hereby denied.
Appellant’s pro se “Motion for Rehearing, Certify Question of
Great Public Importance, and for Written Opinion” is hereby denied.
EMAS, C.J., and SCALES and GORDO, JJ., concur.
ATiti^^V R '

ATI^jsf
.A
l->IS!

cc:

la

A

'"L
’i-.Al,

Luis M. Garcia
Jose Yeyille

Sara M. Marken

Walter J. Harvey

®l)tr45-liMrtct-Court-of^ppeat
!§>tate of jflortba
Opinion filed May 26, 2021.
Not final until disposition of timely filed motion for rehearing.

No. 3D20-1824
Lower Tribunal No. 18-22362

Jose Yeyille,
Appellant,
vs.
Armandina Acosta-Leon, et al.,
Appellees.

An Appeal from the Circuit Court for Miami-Dade County, Antonio
Arzola, Judge.
Jose Yeyille, in proper person.
Walter J. Harvey, Miami-Dade County School Board Attorney, and Luis
M. Garcia, Deputy School Board Attorney, for appellees.

Before EMAS, C.J., and SCALES and GORDO, JJ.
PER CURIAM.
Affirmed.

I Affcwocz)

IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
THIRD DISTRICT
MAY 26, 2021

JOSE YEYILLE,
Appellant(s)/Petitioner(s)
vs.
ARMANDINA ACOSTA-LEON, et a!.
Appellee(s)/Respondent(s),

CASE NO.: 3D20-1824
L.T. NO.:

18-22362

Appellant’s pro se “Suggestion for Certification” is hereby denied.
EMAS, C.J., and SCALES and GORDO, JJ., concur.

• : 'n

r...

V.

%

"'f.

i .msi

cc:

cotmT'oifkM'jj a l.

Luis M. Garcia
Jose Yeyille

Sara M. Marken
Miami-Dade Clerk

Walter J. Harvey

ns

/Wm)lX 3

Filing # 117723921 E-Filed 12/07/2020 09:04:37 AM

_______ IN THE CIRCUIT COURT OF THE ELEVENTH JUDICIAL
CIRCUIT IN AND FOR MI AMI - DA D E ~C OUNTY,_F L O R ID A
CASE NO: 2018-022362-CA-Q1
SECTION: CA24
JUDGE: Antonio Arzola
Jose Yeyille
Plaintiff(s)
vs.
Armandina Acosta Leon et al
Defendant(s)

ORDER DENYING MOTION FOR RECONSIDERATION
This matter came before the Court on December 7, 2020, upon the Petition Motion for
Reconsideration of the Court's Order Granting Defendants' Combined Motion to Dism with
Prejudice and Order of Dismissal filed on December 6, 2020. Having reviewed thD motion, and
being otherwise fully advised in the premises, the Court hereby ORDERS AND ADJUDGES as
follows:
1. The Motion for Reconsideration is DENIED.
DONE and ORDERED in Chambers at Miami-Dade County, Florida on this 7th day of
December. 2020.

-2020

2018-022362-CA-01 12-07-2020 9:01 AM
Hon. Antonio Arzola
CIRCUIT COURT JUDGE
Electronically Signed

Case No: 2018-022362-CA-01

Page 1 of 2

Final Order as to All Parties SRS #: 12 (Other)
THE COURT DISMISSES THIS CASE AGAINST ANY PARTY NOT LISTED IN THIS
FINAL ORDER OR PREVIOUS ORDER(S). THIS CASE IS CLOSED AS TO ALL
PARTIES.

Electronically Served:
Jose Yeyille, joseyeyilleesq@yahoo.com
Jose Yeyille, joseyeyilleesq@yahoo.com
Jose Yeyille, joseyeyilleesq@yahoo.com
Luis M. Garcia, lmgarcia2@dadeschools.net
jose yeyille, joseyeyilleesq@yahoo.com

Physically Served:

Case No: 2018-022362-CA-01

Page 2 of 2

Filing # 117676949 E-Filed 12/04/2020 01:48:01 PM

IN THE CIRCUIT COURT OF THE ELEVENTH JUDICIAL
CIRCUIT IN AND FOR MIAMI-DADE COUNTY, FLORIDA:
CASE NO: 2018-022362-CA-01
SECTION: CA24
JUDGE: Antonio Arzola
Jose Yeyille
Plaintiff(s)
vs.
Armandina Acosta Leon et al
Defendant(s)

ORDER GRANTING DEFENDANTS' COMBINED MOTION TO DISMISS WITH
PREJUDICE AND ORDER OF DISMISSAL

THIS CAUSE having come before the Court on December 1, 2020 upon Defendants’
Combined Motion to Dismiss with Prejudice Plaintiffs “Amended Petition For Decla
Judgments For Constitutional Challenges,” and the Court having considered the procedural
history, reviewed Defendants’ Combined Motion to Dismiss with Prejudice and Plainti
response thereto, having heard argument of counsel, and having been fully advised by the parties,
the Court hereby ORDERS and ADJUDGES as follows:
Defendants’ Combined Motion to Dismiss is GRANTED for the following reasons;
1. The Court finds that Plaintiff’s Amended Petition fails to state a claim upon which
relief may be granted. Instead, Plaintiff seeks to have this Circuit Court invalidate
the rulings of the Third District Court of Appeal and of the Florida Supreme Court
and to find that these courts have violated his civil rights;
2. This Court has no jurisdiction over Plaintiff’s purported constitutional claims or to
provide the requested relief; and

Case No: 2018-022362-CA-01

(TrffWDK 5~|
Page 1 of 3

^37This~court~further-finels-t^-Raintiff-s-Glaims-are-barred_bv the Doctrine of Res
Judicata because such issues, claims, facts, and causes of action have been
decided by both state and federal courts of competent jurisdiction.
4. Accordingly, Defendants’ Combined Motion to Dismiss Plaintiff’s Amended Petition
is hereby GRANTED, with prejudice. This matter is hereby dismissed and the
Clerk of Court is instructed to close this case.
5. The Court also denies Plaintiff’s recently filed Motion to Amend as the Court finds
that further Amendment of Plaintiff’s Petition would be futile for the reasons stated
above.
DONE and ORDERED in Chambers at Miami-Dade County, Florida on this 4th day of
December. 2020,

-*=>

2018-022362-CA-01 12-04-2020 1:46 PM
Hon. Antonio Arzola
CIRCUIT COURT JUDGE
Electronically Signed

Final Order as to All Parties SRS #: 12 (Other)
THE COURT DISMISSES THIS CASE AGAINST ANY PARTY NOT LISTED IN THIS
FINAL ORDER OR PREVIOUS ORDER(S). THIS CASE IS CLOSED AS TO ALL
PARTIES.

Electronically Served:
Jose Yeyille, joseyeyilleesq@yahoo.com
Jose Yeyille, joseyeyilleesq@yahoo.com
Jose Yeyille, joseyeyilleesq@yahoo.com
Luis M. Garcia, lmgarcia2@dadeschools.net
jose yeyille, joseyeyilleesq@yahoo.com

Case No: 2018-022362-CA-01

Page 2 of 3

Physically Served:

Case No: 2018-022362-CA-01

Page 3 of 3

Filing # 117531853 E-Filed 12/02/2020 02:33:55 PM

IN THE CIRCUIT COURT OF THE ELEVENTH JUDICIAL
CIRCUIT IN AND FOITMIAMI-DADE COUNTYrFLORIDA
CASE NO: 2018-022362-CA-01
SECTION: CA24
JUDGE: Antonio Arzola
Jose Yeyille
Plaintiff(s)
vs.
Armandina Acosta Leon et al
Defendant(s)

ORDER DENYING PLAINTIFF’S MOTION FOR RECONSIDERATION WITHOUT
PREJUDICE
This matter came before the Court upon the Plaintiffs Motion for Reconsid Having
reviewed the motion, and being otherwise fully advised in the premises, the Court hereby
ORDERS AND ADJUDGES as follows:
1. The Plaintiffs motion is DENIED without prejudice. Plaintiffs motion was filed
prematurely. The written order memorializing the Court's ruling at the December 1 2020 hearing
has not yet been entered.
DONE and ORDERED in Chambers at Miami-Dade County, Florida on this 2nd day of
December. 2020,

-SOSO

2018-022362-CA-01 12-02-2020 2:29 PM
Hon. Antonio Arzola
CIRCUIT COURT JUDGE
Electronically Signed

No Further Judicial Action Required on THIS MOTION
CLERK TO RECLOSE CASE IF POST JUDGMENT

Case No: 2018-022362-CA-01

’age 1 of 2

Electronically Served:
Jose Yeyille, joseyeyilleesq@yaho07com---Jose Yeyille, joseyeyilleesq@yahoo.com
Jose Yeyille, joseyeyilleesq@yahoo.com
Luis M. Garcia, lmgarcia2@dadeschools.net
jose yeyille, joseyeyilleesq@yahoo.com

Physically Served:

Case No: 2018-022362-CA-01

Page 2 of 2

Filing # 122624778 E-Filed 03/05/2021 09:33:16 PM

IN THE CIRCUIT COURT OF THE I1TH
JUDICIAL Cl RC_UIT IN AND FOR
MIAMI-DADE COUNTY FLORIDA-------GENERAL JURISDICTION DIVISION
CASE NO. 18-22362 CA 24
JOSE YEYILLE,
Plaintiff,
vs.
AMANDINA ACOSTA-LEON, et al.
Defendants.

ORDER GRANTING DEFENDANTS’ COMBINED MOTION TO DISMISS WITH
PREJUDICE PLAINTIFF'S “AMENDED PETITION FOR DECLARATORY
JUDGMENTS FOR CONSTITUTIONAL CHALLENGES”
THIS CAUSE having come before the Court on December 1, 2020 upon Defendants’
Combined Motion to Dismiss with Prejudice Plaintiffs “Amended Petition For Declaratory
Judgments For Constitutional Challenges,” and the Court having considered the procedural history,
reviewed Defendants’ Combined Motion to Dismiss with Prejudice and Plaintiffs response
thereto, having heard argument of counsel, and having been fully advised by the parties, the Court
hereby ORDERS and ADJUDGES as follows:
Defendants’ Combined Motion to Dismiss is GRANTED for the following reasons;
1) The Court finds that Plaintiffs Amended Petition fails to state a claim upon which relief
may be granted. Instead, Plaintiff seeks to have this Circuit Court invalidate the rulings
of the Third District Court of Appeal and of the Florida Supreme Court and to find that
these courts have violated his civil rights;

/rPf£wpix ^

2) This Court has no jurisdiction over Plaintiffs purported constitutional claims or to
provide the requested relief; and
3) This court further finds that Plaintiffs claims are barred by the Doctrine of Res Judicata
because such issues, claims, facts, and causes of action have been decided by both state
and federal courts of competent jurisdiction.
4) Accordingly, Defendants’ Combined Motion to Dismiss Plaintiff s Amended Petition
is hereby GRANTED, with prejudice.
5) The Court also denies Plaintiffs recently filed Motion to Amend as the Court finds that
further Amendment of Plaintiff s Petition would be futile.
DONE AND ORDERED in Chambers at Miami-Dade County, Florida on December 1, 2020

ANTONIO ARZOLA
CIRCUIT COURT JUDGE

cc:

Counsel of Record
Jose Yeyille, pro se
Luis M. Garcia, Esq.

INJHE CIRCUIT COURT OF THE ELEVENTH JUDICIAL CIRCUIT IN
AND FOR MIAMI-DADE COUNTY, FLORIDA
qa

CASE NO. 22362-24

THE ONIGINAl,
FILED ON:

NOV 2 8 2018
JOSE YEYILLE,

)

Plaintiff,

)

v.

)

ARMANDINA ACOSTA LEON, in her
)
individual capacity, and in her official
capacity as Assistant Principal of John A.
)
Ferguson Senior High School; LISA
ROBERTSON, in her individual capacity, )
and in her official capacity as Principal of
)
John A. Ferguson Senior High School;
ASUNCION VALDES, in her individual
capacity, and in her official capacity as
)
Payroll and Substitute Locator of John A.
)
Ferguson Senior High School; EGNA
RIVAS, in her individual capacity and in
her official capacity as Attendance Office
)
Secretary of John A. Ferguson Senior High
School; ALBERTO CARVALHO, in his
)
individual capacity, and in his official
capacity as Superintendent of Miami-Dade )
County Public Schools; and SCHOOL
BOARD OF MIAMI-DADE COUNTY,
)
FLORIDA
Defendants.

)

in the office of

Florida Declaratory Judgments
§86.011
Fla R. of Civ. Proc. 1.071
Constitutional challenges:
Florida Constitution
Article V, §3(b)(3)
“expressly” provision in its
fourth clause.
Fla. R. App. Proc. §9.030
(a)(2)(A)(iv); and
Per Curiam Affirmances
(PCAs)
violate Florida Constitution
Article I, §21, §9, and §2
and
United States Constitution,
Amendment XIV, §1
Due Process and
Equal Protection Clauses
Injunction, and Jury Trial

AMENDED PETITION FOR DECLARATORY JUDGMENTS FOR
CONSTITUTIONAL CHALLENGES
1

I

8 /

JURISDICTION
1.

This is an action for declaratory judgments for constitutional challenges for

compensatory and punitive damages, injunction and other equitable remedies, and
restitution in excess of the jurisdictional limits of this Court pursuant to Chapter
86, Declaratory Judgments, Florida Statutes §86.011 through §86.111 against
Acosta Leon, Robertson, Valdes, Rivas, and Carvalho in their individual and
official capacities, and the School Board of Miami-Dade County, Florida.
2.

Venue is proper in this Court under Florida Statute§47.011 because the

incidents which are the subjects of my Constitutional Challenges to the Florida
Constitution, Rule of Appellate Procedure, and Per Curiam Affirmance issued by
the Third District Court of appeal and affirmed by the Florida Supreme Court
occurred in Miami-Dade County, Florida.
3.

Florida Rule of Civil Procedure 1.071 notice requirement was met. Office

of Attorney General State of Florida, The Capitol PL-01,Tallahassee, FL 32399.
FACTS
4.

On May 2nd, 2018 a panel of three judges of the Third Court of Appeal issued

a Per Curiam Affirmance (hereinafter “PCA” or “PCAs”). [Case No. 3D17-2605].
5.

On May 22nd, 2018 the panel issued a Corrected Order denying my “motion

for rehearing, clarification and issuance of written opinion pursuant to Appellate

2-

-Rtile-of-Givil-R'ocedure-9.330(a).m.Case No. 3D17-26051.
6.

On May 31st, 2018 the Florida Supreme Court dismissed my case on

jurisdictional grounds: “This Court lacks jurisdiction to review an unelaborated
decision from a district court of appeal that is issued without opinion...
Jenkins v. State, 385 So.2nd 1356 (Fla. 1980).” [Case No. SC18-845],
7.

On July 6th, 2018 the Florida Supreme Court dismissed my petition for all

writs jurisdiction for lack of jurisdiction. [Case SC18-937].
CONSTITUTIONAL QUESTIONS
8.

Whether the Third District Court of Appeal’s PCA and the Florida Supreme

Court’s dismissal of the PCA on jurisdictional grounds violated my civil rights
protected by the Constitution of Florida’s Article I, §21, §2 and §9; and the
Constitution of the United States’ Amendment XIV §1 Due Process and
Equal Protection Clauses.
CONSTITUTIONAL PROVISIONS AND PCAs
I.

Florida Constitution Article V, 3§(b)(3).

Article V, §3(b)(3) May review any decision of a district court of appeal that
expressly declares valid a state statute, or that expressly construes a provision of
the state or federal constitution, or that expressly affects a class of constitutional or
state officers, or that expressly and directly conflicts with a decision of another
district court of appeal or of the supreme court on the same question of law.
[emphasis].
II.

Florida Rules of Appellate Procedure!
3

----§9;030fa)(-2^~The-disGretiQnar-V-iur.isdiction.oLthe_supreme court may be
sought to review (A) decisions of district courts of appeals that (iv) expressly
and directly conflict with a decision of another district court of appeal or of
the supreme court on the same question of law.” [emphasis].
III.

Per Curiam Affirmances issued by district courts of appeals.

IV.

Constitution of the State of Florida.

1. Article I, § 21 “Access to courts.—The courts shall be open to every
person for redress of any injury, and justice shall be administered without
sale, denial, or delay.”
2.

Article I, § 2 “All...persons...are equal before the law.”

3. Article I, § 9 “No person shall be deprived of...property without due
process of law.”
V.

Constitution of the United States.

4. United States Constitution, Amendment XIV, §1 “[N]or shall any state
deprive any person of...property, without due process of law; nor deny to .
any person within its jurisdiction the equal protection of the laws.
ANSWER
9.

Yes.
JUSTICES OF THE FLORIDA SUPREME COURT INSTIGATE
LEGISLATORS AND JOIN THE LEGISLATURE OF THE STATE OF
FLORIDA TO VIOLATE THE CONSTITUTIONAL RIGHTS OF THE
PEOPLE OF THE STATE OF FLORIDA

10.

Jenkins v. State, 385 So.2d 1356 (1980): The cancer in the jurisprudence

of the State of Florida.
It was.. .in the face of a staggering case load that in November, 1979,
4

■this-Court-urged-theiegislature.meetingin special session, to enact a
proposed amendment to *1359 section 3 of Article V of the Florida
Constitution to limit the jurisdiction of the Supreme Court.
At hearings before the legislature and in countless meetings with
representatives of The Florida Bar, The Conference of Circuit Judges
of Florida, the Appellate Judges’ Conference, The League of Women
Voters as well as other interested organizations too numerous to recount,
members of this Court represented that one of the intents and effects of
the revision of section 3(b)(3) was to eliminate the jurisdiction of the
Supreme Court to review for conflict purposes per curiam decisions of
the district courts of appeal rendered without opinion, regardless of the
existence of a concurring or dissenting opinion. These same representations
were made consistently to the public at large preceding the ballot on the
proposed amendment. There can be little doubt that the electorate was
informed as to this matter, because opponents of the amendment
broadcast from one end of this state to the other that access to the
Supreme Court was being “cut off, ” and that the district courts of appeal
would be the only and final courts of appeal in this state. With regard to
review by conflict certiorari of per curiam decisions rendered without
opinion, they were absolutely correct.
The pertinent language of section 3(b)(3), as amended April 1, 1980,
leaves no room for doubt. This Court may only review a decision of a
district court of appeal that expressly and directly conflicts with a decision
of another district court of appeal or the Supreme Court on the same
question of law. The dictionary definitions of the term “express” include:
“to represent in words”; “to give expression to.” “Expressly” is defined:
“in an express manner.” Webster's Third New International Dictionary,
(1961 ed. unabr.). The single word “affirmed” comports with none of
these definitions. Furthermore, the language and expressions found in a
dissenting or concurring opinion cannot support jurisdiction under section
3(b)(3) because they are not the decision of the district court of appeal.
Jenkins v. State, 385 So.2d 1356,1358-59 (1980). (emphasis added).
Justice Adkins, dissenting
The majority says there was little doubt “that the electorate was informed”
and proceeds to construe a purported constitutional amendment, the terms
5

of-which-wcrcnot-pIaced.on-theJballot_nor were they explained to the
public.
While discussions with some segments of the public on background and
debates concerning the proposed amendment were instructive, nevertheless,
what was submitted to the people for adoption was a statement on the
ballot which read: “Iplroposing an amendment to the State Constitution
to modify the jurisdiction of the Supreme Court.” In discussing the
proposed amendment, one news analyst contended:
The ballot says simply that the proposal would “modify the jurisdiction
of the Supreme Court, ” giving the public little insight into the changes it
would make in court appeals procedures.
Given the complex nature of those procedures, few voters understand
the issue.
When the constitutional amendment is considered in light of historical
development of the decisional law (as suggested by the majority), we
find regression instead of progression. The majority admits that many
will not obtain justice for our jurisdiction will be limited to resolving
questions of importance to the public as distinguished *1364 from that
of the parties. Jenkins v. State, 385 So.2d 1356,1364-5 (1980).
(emphasis added).
ARGUMENT
11.

In the State of Florida judges are usually elected, and always re-elected, by

popular vote. I shall now respectfully make the following remarks about the
Justices of the Supreme Court of Florida in their capacities as politicians and
advocates in the legislature.
12.

Wielding the pretext of being overworked and overwhelmed by “a

staggering case load”, during the years 1979-80 Justices of the Supreme Court
6

Qf-FlQrida-actLV-ely_adyoc_ating and enlisting adherents in the legislature, The
Florida Bar, The Conference of Circuit Judges of Florida, and the Appellate
Judges’ Conference, cynically curtailed the right of the citizens and residents of
Florida to access their appellate courts including its District Courts of Appeals,
the Supreme Court of Florida, and the Supreme Court of the United States.
13.

Allowing district courts to euthanize a case with a PCA, especially when in

cases like mine it affirms and joins a circuit court’s decision flouting clear and
undisputable commands of the supreme courts of Florida and the United
States, Florida statutes, and Florida Rules of Civil Procedure, amounts
to a denial of access to the courts guaranteed by Article I, §21, and my civil
rights protected by §§ 9, and 2 of the Constitution of the State of Florida, and
Amendment XIV, §1 of the Constitution of the United States.
14.

The Court and its allies deceived the voters into surrendering their constitu­

tional rights to a fair trial (Article I, §§ 9 and 2, Fla. Const, and Amendment
XIV, §1 of the U.S. Constitution) and access to its courts (Article I, § 21, Fla.
Const.) by means of an spurious and deliberately vague ballot “[proposing an
amendment to the State Constitution to modify the jurisdiction of the
Supreme Court” which allowed the Florida Supreme Court to eliminate them
through the amendment to Article V, §3(b)(3) with the word “expressly.”

7

f

-}-5-—Qr4inar41y^4AiLneee.ssaTv for attorneys and journalists to dig through legis­
lative histories to discover the real motivations and prejudices which lead
politicians, advocates—and, in this case, Justices of the Florida Supreme Court—,

\

to enact laws. That effort is unnecessary here; for the Justices of the Supreme
Court of Florida who wrote the majority opinion in Jenkins exposed their true
intention with this cynical and mocking statement: “With regard to review by
conflict certiorari of per curiam decisions rendered without opinion, they
were absolutely correct.”
16.
"\

Furthermore, the Justices of the Supreme Court of Florida knew then—

and inevitably they had to become alerted immediately afterwards—that by
endorsing PC As to deny its jurisdiction the vast majority of their victims
*

would be—and are—the poor, the destitute, and minorities. One does not
need to compose a Brandeis Brief to verify and establish that fact. The Justices
simply had to look at their district courts’ “opinions” and PC As—particularly the
third district’s—, to confirm that reality. PC As are almost absolutely limited to
the parties who are poor, destitute, and minorities. [See f42, infra].
r

17.

By amending the Florida Constitution with the word “expressly”, the

Justices of the Supreme Court of Florida, then, and now, expressly, intentionally,
and maliciously cleaned its dockets, and those of the lower courts, of cases
8
t

j

.Constitution of the State of Florida, Article V, §3 (b)(3) “or that expressly and
directly conflicts with a decision of another district court of appeal or of the
supreme court on the same question of law; and/or
21.

that this Court declare unconstitutional Article V, §3(b)(3) of the Consti­

tution of the State of Florida in its entirety; and/or
.22.

that this Court declare unconstitutional the “expressly” provision in

Florida Rule of Appellate Procedure 9.030(a)(2)(A)(iv); and/or
23.

that this Court declare unconstitutional Per Curiam Affirmances (PC As)

issued by the district courts of Appeals of Florida; and/or
24.

that this Court order the Third District Court of Appeal to issue a written

opinion in my case, 3D 17-2605; and/or
25.

that this Court order the Third District Court of Appeal to reinstate and/or

rehear my case; and/or
26.

that this Court order the Florida Supreme Court to reinstate and/or rehear

my case; and/or
27.

that this Court overrule/abrogate Jenkins v. State, 385 So.2nd 1356 (Fla.

1980), and/or
28.

that this Court overrule/abrogate Jenkins v. State, 385 So.2nd 1356 (Fla.

1980) not only regarding my Petition, but also retroactively to the year in which

10

#^e-Flef-i4a-Coasti-tutiQii Is.

tide V. 3§(b)(3) was enacted and Jenkins decided.

Norton v. Shelby County. 118 U.S. 425, 442 (1886):
“[A]n unconstitutional act is not a law; it confers no rights; it imposes
no duties; it affords no protection; it creates no office; it is, in legal
contemplation, as inoperative as though it had never been passed.”
29.

I move this Court to enjoin all the district courts of appeals in Florida—

especially and particularly the Third District Court of Appeal—from issuing
PCAs, and order them to issue only written opinions.
30.

I demand a jury trial pursuant to Florida Statute §86.071.

RELEVANT AND PRECEDENTIAL CASES
31.

McKnett v. St. Louis & S. F. Ry., 292 U. S. 230,233 (1934): “The power

of a State to determine the limits of the jurisdiction of its courts and the
character of the controversies which shall be heard in them is...subject to the
restrictions imposed by the Federal Constitution.” {emphasis).
32.

Gideon v. Wainwrisht, 372 U.S. 335,342 (1963): “[A] provision of the

Bill of Rights which is “fundamental and essential to a fair trial” is made
obligatory upon the States by the Fourteenth Amendment.” {emphasis) “The
right to be heard.” (Id. at 344).
33.

Romer v. Evans, 517 U.S. 620, 633 (1996):
“Central both to the idea of the rule of law and to our own Constitution's
guarantee of equal protection is the principle that government and each
11

\

-----—of-its-parts-remain.openon impartial terms to all who seek its assistance. ”
‘Equal protection of the laws is not achieved through indiscriminate
imposition of inequalities.’” Sweatt v. Painter, 339 U.S. 629, 635 (1950)
(quoting Shelley v. Kraemer, 334 U. S. 1, 22 (1948)).............................
34.

Village of Arlington Heights v. Metropolitan Housing Development Coro.,

429 U.S. 252, 266 (1977): “IA.1 dear pattern, unexplainable on grounds other
than race, emerges from the effect of the state action even when the governing
legislation appears neutral on its face.”
35.

Masterpiece Cakeshop, Ltd., etal. v.Colorado Civil Rights Commission,

et al., 584 U.S.

2018. Pages 12 through 14. Justices of the Supreme Court

of Florida’s cynical and mocking statements about the gullibility of Florida voters
are equivalent to the Civil Rights Commission’s hostile and mocking statements
against a person’s religious beliefs; namely: “With regard to review by conflict
certiorari of per curiam decisions rendered without opinion, they were
absolutely correct.”
36.

Griffin v. Illinois, 351 U.S. 12, 18 (1956):
A State is not required by the Federal Constitution to provide appellate
courts or a right to appellate review at all... But that is not to say that
a State that does grant appellate review can do so in a way that
discriminates against some...defendants on account of their poverty.

37.

Kluger v. White, 281 So.2d 1 (Fla. 1973).

12

OTHER AUTHORITIES
38. Rose, Henry, The Poor as a Suspect Class under the Equal Protection
Clause”An Open Constitutional Question. 34 Nova Law Review 407 (2010).
I urge this Court to declare the poor a protected suspect class under the Equal
Protection clause considering Mr. Henry Rose’s comments about Cleburne v.
Cleburne Living Ctr., 473 U.S. 432,442-5 (1985) in page 420:
The courts will consider several factors in determining whether a
particular group should be treated as a quasi-suspect or suspect class
under Equal Protection. These factors include: whether there are
legitimate reasons for the government to treat members of the group
differently than other persons; whether members of the group have
immutable characteristics; whether federal and state legislation reflects
a continuing antipathy or prejudice against the group; whether the
group is politically powerless in its ability to attract the attention of
lawmakers; and whether there are principled ways to distinguish the
group from other similar groups who might seek heightened scrutiny
39.

Benjamin N. Cardozo, The Nature of the Judicial Process (1921):
The great tides and currents which engulf the rest of men do not
turn aside in their course and pass the judges by...(page 168).
My duty as judge may be to objectify in law, not my own aspirations
and convictions and philosophies, but the aspirations and convictions
and philosophies of the men and women of my time. Hardly shall I
do this well if my own sympathies and beliefs and passionate devotions
are with a time that is past.”(page 173).

United Nations General Assembly. Human Rights Council: Report of
the Special Rapporteur on Extreme Poverty and Human Rights on his
mission to the United States of America (2018)

40.

“Who are “the Poor”? In imagining the poor, racist stereotypes
are usually not far beneath the surface. The poor are overwhelmingly
13

assmnedto be people of colour, whether African Americans or Hispanic
“immigrants”. The reality is that there are 8 million more poor WlTitesthan there are poor Blacks. The face of poverty in America is not only
Black or Hispanic, but also White, Asian, and many other backgrounds.
“According to the official poverty measures, in 2016,12.7 percent of
Americans were living in poverty, according to the supplemental poverty
measure, the figure was 14 percent.” (Page 6).
41.

“Justice should not only be done, but should ... be seen to be done.” Lord

Chief Justice Hewart in R v. Sussex Justices, ex p Me Carthy (1923).
42.

I move this Court to take judicial notice of all the opinions—especially

all the PCA opinions—issued by the District Court of Appeals of Florida,
particularly those of the Third District, since 1980.
FLORIDA RULE OF CIVIL PROCEDURE 1.071 NOTICE
REQUIREMENT AND FLA. STAT. §86.091 NOTICE OF
COMPLIANCE WERE MET—AGAIN
43.

Copy of this Amended Petition will be sent—again—to Office of Attorney

General State of Florida, The Capitol PL-01,Tallahassee, FL 32399-1050 on
tVt

'

,2018. Previous notice of Petition was sent on July 9 ,2018
by certified mail.
44.

NOTICE OF COMPLIANCE: Notice of compliance with §86.091

Florida Statute requirement was met on July 9 ,2018. But for the sake of
clarification it is repeated here again for this Amended Petition.

14

-NOTICE OF COMPLIANCE WITH SECTION 86.091 FLORIDA STATUTES
(FORM 1.975)
The undersigned hereby gives notice of compliance with Fla. R. Civ. P.
1.071, with respect to the constitutional challenge brought pursuant to the
Constitution of the State of Florida, Article V, §3(b)(3)’s provision “or
that expressly and directly conflicts with a decision of another district
court of appeal or of the supreme court on the same question of law”;
Florida Rule of Appellate Procedure 9.030(a)(2)(A) (iv)’s provision
“expressly and directly conflict with a decision of another district court
of appeal or of the supreme court on the same question of law”; and “Per
Curiam Affirmances (PCAs)(Unwritten Opinions) issued by district courts
of appeals.” {emphasis). The undersigned complied by serving the
Attorney General for the state of Florida with a copy of the pleading or
motion challenging the aforementioned provision of the Florida
Constitution and Florida Rule of Appellate Procedure, and PCAs issued by
district courts of appeals by certified mail on N/OWftn /vy
2018.

A

Jose Yeyille
5505 SW 135th Court
Miami, FL 33175

PRO SE

45.

Copies of 3D-2605, SC18-845, and SC18-937 {Supra. f|f4,5,6, and 7)

are attached to this Amended Petition. [See APPENDIX].
%

Respectfully submitted,

Dated:
N2018

A

Jose Yeyille
5505 SW 135th Court
Miami, FL 33175

PRO SE

15

CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the foregoing has been sent
by U.S. mail to attorney for Respondents, Walter Harvey, School Board Attorney,
The School Board of Miami-Dade County, Florida, 1450 NE 2nd Avenue, Room
430, Miami, FL 33132; and the Office of Attorney General, State of Florida,
The Capitol PL-01,Tallahassee, FL 32399-1050 on this
2018.
Jose Yeyille
Walter J. Harvey
School Board Attorney
The School Board of Miami-Dade County, Florida
1450 NE 2nd Avenue, Room 430
Miami, FL 33132
Department of Financial Services
200 E. Gaines Street,
Tallahassee, FL 32399
Office of Attorney General
State of Florida
The Capitol PL-01,
Tallahassee, FL 32399-1050

16

I

f.

s
4

/

\
y

r'

APPENDIX

;■

f

'\
\
*

y\

\

f
*\
\

r

(

;
1

K

.y

!

r

n

\

I

4

>

/

/•
"Y

/
r

)

TEfjtrti BllfrtrrCuurtofKypeai
State of Florida
Opinion filed May 2, 2018.
Not final until disposition of timely filed motion for rehearing.

No. 3D17-2605
Lower Tribunal No. 15-25880

Jose Yeyille,
Appellant,
vs.

Armandina Acosta-Leon, et al •?
Appellees.

An Appeal from the Circuit Court for Miami-Dade County, Bronwyn C.
Miller, Judge.
Jose Yeyille, in proper person.
Walter J. Harvey, School Board Attorney, and Luis M. Garcia, Deputy
School Board Attorney, for appellees.

Before LAGOA, SALTER, and EMAS, JJ.
PER CURIAM.
Affirmed.

IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
THIRD DISTRICT
MAY 22, 2018

JOSE YEYILLE
Appellant(s)/Petitioner(s),
vs.
ARMANDINA ACOSTA-LEON, et al.,
Appellee(s)/Respondent(s),

CASE NO.: 3D17-2605
L.T. NO.:

15-25880

CORRECTED ORDER
Upon consideration, appellant’s pro se motion for rehearing,
clarification and issuance of written opinion pursuant to Appellate Rule of Civil
Procedure 9.330(a) is hereby denied.
LAGOA, SALTER and EMAS, JJ., concur.
A True

cc:
la

Luis M. Garcia

Walter J. Harvey

Jose Yeyille

Supreme Court of Jflorttia
TT4URSDAY,-MAY3.U2011
CASE NO.: SC18^35
Lower Tribunal No(s).:
3D17-2605; 132015CA025880000001
JOSE YEYILLE

vs.

Petitioner(s)

ARMANDIANA ACOSTA-LEON
Respondent(s)

This case is hereby dismissed. This Court lacks jurisdiction to review an
unelaborated decision from a district court of appeal that is issued without opinion
or explanation or that merely cites to an authority that is not a case pending review
in, or reversed or quashed by, this Court. See Wells v. State, 132 So. 3d 1110 (Fla.
2014); Jackson v. State, 926 So. 2d 1262 (Fla. 2006); Gandy v. State, 846 So. 2d
1141 (Fla. 2003); Stallworth v. Moore, 827 So. 2d 974 (Fla. 2002); Harrison v.
Hyster Co., 515 So. 2d 1279 (Fla. 1987); Dodi Publ’g Co. v. Editorial Am. S.A.,
385 So. 2d 1369 (Fla. 1980); Jenkins v. State, 385 So. 2d 1356 (Fla. 1980).
No motion for rehearing or reinstatement will be entertained by the Court.

A True Copy
Test:

John A. Tomasino
Clerk, Supreme Court

tw

Served:
WALTER JAMES HARVEY
LUIS MICHAEL GARCIA
JOSE YEYILLE
HON. MARY CAY BLANKS, CLERK
HON. HARVEY RUVIN, CLERK
HON. BRONWYN C. MILLER, JUDGE

FRIDAY, JULY 6,2018
CASE NO.: SC18-937
Lower Tribunal No(s).:
3D17-2605; 132015CA025880000001
JOSE' YEYILLE

Petitioner(s)

vs.

ARMANDINA ACOSTA-LEON, ET
AL.
Respondent(s)

In accordance with this Court’s order in Yeyille v. Acosta-Leon, No. SC 18845,2018 WL 2446962 (Fla. order filed May 31, 2018), the Court will not
entertain rehearing or reinstatement in case number SC 18-845. The petition to
invoke all writs jurisdiction is dismissed for lack of jurisdiction because the
petitioner has failed to cite an independent basis that would allow the Court to
exercise its all writs authority and no such basis is apparent on the face of the
petition. See Williams v. State, 913 So. 2d 541, 543-44 (Fla. 2005); St. Paul Title
Ins. Corp. v. Davis, 392 So. 2d 1304, 1305 (Fla. 1980). No rehearing will be
entertained by this Court.
CANADY, C.J., and PARIENTE, LEWIS, QUINCE, and POLSTON, JJ., concur.
A True Copy
Test:

John A. Tomasino
Clerk, Supreme Court

dl
Served:

CASE.no.: SC 18-93 7
Page Two

SARA M. MARKEN
WALTER JAMES HARVEY
LUIS MICHAEL GARCIA
JOSE' YEYILLE
HON. HARVEY RUVIN, CLERK
HON. MARY CAY BLANKS, CLERK

'~N

